No. 20-804
IN THE

HOUSTON COMMUNITY COLLEGE SYSTEM,

Petitioner,
v.
DAVID BUREN WILSON,

Respondent.
On Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
JOINT APPENDIX
Michael B. Kimberly
MCDERMOTT WILL & EMERY
500 North Capitol Street, NW
The McDermott Building
Washington, DC 20001
(202) 756-8901
mkimberly@mwe.com

Richard A. Morris
ROGERS, MORRIS & GROVER
5718 Westheimer Road
Suite 1200
Houston, TX 77057
(713) 960-6019
rmorris@rmgllp.com

Counsel of Record for
Respondent

Counsel of Record for
Petitioner

Petition for Writ of Certiorari Filed: December 11, 2020
Certiorari Granted: April 26, 2021

i
TABLE OF CONTENTS
RELEVANT DOCKET ENTRIES
United States District Court, Southern
District of Texas, Case No. 1:18-cv00744 ............................................................... 1
United States Court of Appeals for the
Fifth Circuit, Case No. 19-20237.................... 3
MATERIALS IN THE U.S. DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF TEXAS (Case No. 4:18-cv00744)
Second Amended Complaint, filed June 14,
2018 ................................................................. 5
BYLAWS OF THE BOARD OF TRUSTEES OF THE
HOUSTON COMMUNITY COLLEGE (Adopted
January 1, 2010 and Amended June 15,
2017) .................................................................... 17

1
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS

David Buren Wilson v. Houston Community
College System et al.
Case No. 4:18-cv-00744

RELEVANT DOCKET ENTRIES
Date Filed #

Docket Text

03/08/2018 1

NOTICE OF REMOVAL from
270th JDC Harris County, case
number 2017-67357 * * * *

04/24/2018 8

ORDER denying 2 Motion to
Remand, 5 Response to Plaintiff's
Motion to Remand.(Signed by
Judge Kenneth M Hoyt) Parties
notified.(jdav, 4) (Entered: 04/24/
2018)

06/14/2018 12

Second AMENDED COMPLAINT
against Houston Community
College System filed by David
Buren Wilson. (Attachments: # 1
Exhibit)(Gross, Keith) (Entered:
06/14/2018)

03/22/2019 55

MEMORANDUM OPINION AND
ORDER granting 17 MOTION to
Dismiss. The plaintiffs suit must
be dismissed for lack of subject
matter jurisdiction.(Signed by
Judge Kenneth M Hoyt) Parties

2
notified. (chorace) (Entered:
03/22/2019)
03/22/2019 56

FINAL JUDGMENT; the
plaintiff, David Buren Wilson,
Trustee shall take nothing by his
suit. Case terminated on March
22, 2019.(Signed by Judge
Kenneth M Hoyt) Parties
notified. (chorace) (Entered:
03/22/2019)

04/10/2910 57

NOTICE OF APPEAL to US
Court of Appeals for the Fifth
Circuit re: 56 Final Judgment, 55
Memorandum and Opinion by
David Buren Wilson (Filing fee
$505, receipt number 054122211191), filed. (Gross, Keith)
(Entered: 04/10/2019)

3
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

David Buren Wilson v. Houston Community
College System,
Case No. 19-20237

RELEVANT DOCKET ENTRIES
Date Filed

Docket Text

04/11/2019

CIVIL RIGHTS CASE docketed. NOA
filed by Appellant Mr. David Buren
Wilson [19-20237] (AS)

02/06/2020

ORAL ARGUMENT HEARD before
Judges Davis, Smith, Stewart.
Arguing Person Information Updated
for: Keith Alexander Gross arguing
for Appellant David Buren Wilson;
Arguing Person Information Updated
for: Richard Alan Morris arguing for
Appellee Houston Community
College System [19-20237] (PFT)

04/07/2020

PUBLISHED OPINION FILED. [1920237] (CBW)

04/07/2020

JUDGMENT ENTERED AND
FILED. Costs Taxed Against:
appellee. [19-20237] (CBW)

04/17/2020

COURT ORDER granting Motion to
extend the time to file a petition for
rehearing filed by Appellee Houston
Community College System to and

4
including May 5, 2020. until
05/05/2020 Case Management
deadline satisfied.. Mandate issue
date updated to 05/06/2020 [1920237] (SDH)
05/05/2020

PETITION for rehearing en banc.
[9307347-2] Number of Copies: 0.
Mandate issue date canceled. Date of
Service: 05/05/2020. [19-20237]
REVIEWED AND/OR EDITED
****

07/15/2020

COURT ORDER denying Petition for
rehearing en banc filed by Appellee
Houston Community College System
With Poll.; denying for rehearing
[9356484-1] Mandate issue date is
07/23/2020 [19-20237] (PAC)

07/23/2020

MANDATE ISSUED. Mandate issue
date satisfied. [19-20237] (MRW)

5
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
[Date Filed: June 14, 2018]
TRUSTEE, DAVID B. WILSON,
Plaintiff,
v.
HOUSTON COMMUNITY
COLLEGE SYSTEMS,
Defendant.

§
§ C.A. NO.
§ 4:18 CV-00744
§
§
§
§

SECOND AMENDED COMPLAINT
TO THE HONORABLE JUDGE OF SAID COURT:
COMES NOW, COMPLAINANT David B. Wilson and files
this, his Second Amended Complaint and respectfully
shows:
I. Parties
1. PLAINTIFF, DAVID B. WILSON is a natural person
and Trustee for Houston Community College Systems.
Service may be affected through the undersigned
attorney.
2. DEFENDANT,
HOUSTON
COMMUNITY
COLLEGE SYSTEMS is a political subdivision of the
State of Texas. Houston Community College Systems
has made a general appearance, therefore personal
service is not necessary.
III. [sic] Venue and Jurisdiction
3. Venue and Jurisdiction is proper in Harris County,
Texas.

6
IV. Facts
4. Houston Community College Systems (herein after
HCC) is a political subdivision of the State of Texas
that is managed, controlled, and otherwise operated by
a Board of Trustees consisting of nine trustees.
Houston Community College Systems Trustee is an
elected position where each Trustee was elected to
represent the interest of the people of a specific
district. Trustee Wilson was elected to office in
November 2013. Each Trustee is considered to be a
political figure for purposes of the First Amendment
Right of Free Speech.
5. On or about January 2010 HCC’s Board of Trustees
adopted the Board of Trustees Bylaws. The Bylaws
codified certain duties, rules, and regulations
governing HCC’s Trustees. Article “A” identifies the
Board of Trustees serve as fiduciaries to HCC and
require each Trustee act for the benefit of the College.
The code of conduct requires each Trustee to, among
other things:
a. act at all times for the general public good;
b. Keep well-informed on Board related issues…;
[sic]
c.

Encourage and engage in open and honest
discussion in making decisions, to respect
differences of opinion, and to keep an open
mind until each Trustee has had an
opportunity to address the Board;

d. Respect the Board’s collective decision-making
process, and to accurately report and explain
Board votes and policies;

7
e.

Interact with Trustees….in [sic] a manner that
creates and sustains mutual respect.

6. On multiple occasions Trustee Wilson discovered that
other HCC Trustees, acting in their official capacity,
were not acting in the best interest of HCC and
violating HCC’s own Bylaws. Trustee Wilson raised
the following matters with HCC Trustees:
a. that HCC had continued to fund a college
campus, outside the United States in the
country of Qatar using local tax payer money;
b. that HCC was attempting to acquire property
outside the tax paying district to build another
campus;
c.

that HCC violated its Bylaws by permitting
another Trustee to participate in a regularly
scheduled meeting via Skype and allowing
said Trustee to vote in violation of Article
(G)(5). Article (G)(5) requires Trustees to be
present in order to vote. Wilson filed suit and
sought declaratory judgment on the issue;

d. that he was wrongfully excluded from an
executive session, and therefore his district
had no representation;
e.

that another Trustee did not reside in the
district which elected her to office;

f.

that HCC failed to investigate and identify the
names of third party vendors that may have
illegally given money to convicted Trustee
Christopher Oliver;

8
g. that HCC failed to comply with its Bylaws and
timely distribute agenda packets prior to
conducting a meeting;
h. that HCC failed to investigate and enforce
Bylaws concerning communications with
vendors during blackout periods; and
i.

that HCC wrongfully withheld the affidavits of
graduation from more than 30 nursing
students.

7. After Trustee Wilson raised the above matters, HCC
refused to take corrective measures, refused to take
timely corrective measures, or otherwise give credence
to his concerns. For example, Trustee Wilson believed
it to be an unfair burden on the tax payers to fund a
campus outside the tax paying district. When HCC
continued to fund the campus in the country of Qatar,
Trustee Wilson spoke out. When HCC considered
building another campus outside the tax paying
district, Wilson spoke out. Trustee Wilson, acting in
the best interests of HCC and representing his
constituents, publicly took a stance against funding
such campuses. After Wilson went public via “robo”
calls, HCC officials then took corrective measures.
8. In 2016, HCC wrongfully withheld affidavits of
graduation from approximately 30 nursing students
that had complied with all graduation requirements.
At the time, HCC’s nursing program was on academic
probation from the State Board of Nursing and was in
danger of having its nursing program revoked. To
maintain its accreditation, and comply with probation
requirements, HCC needed to have 80 percent of its
graduates pass the state licensing examine. HCC then

9
withheld the affidavits of graduation from the less
promising graduates to ensure an 80 percent passage
rate. Trustee Wilson was outraged by HCC’s conduct
and brought the matter to the public’s attention.
Shortly thereafter, the nursing students filed suit and
the matter was expeditiously resolved when HCC
tendered the affidavits of graduation. Trustee Wilson
was instrumental in ensuring that HCC complied with
its agreement with its students.
9. In 2017, Trustee Wilson objected to Trustee, Vice
Chair, Carolyn Evans-Shabazz voting at the regularly
scheduled agenda meeting when she was not
physically present. Trustee Wilson alleged HCC
Bylaws prohibited voting via teleconference. The
trustees disregarded Wilson’s objection and permitted
Trustee Carolyn Evans-Shabazz to vote. HCC Officials
disregarded its own Bylaws. Thereafter, Wilson filed
suit seeking to enforce the Bylaws and sought
declaratory judgment on the matter. Only after
Trustee Wilson filed suit did HCC amend its bylaws.
10. After Wilson filed suit in the above referenced matter,
HCC excluded Trustee Wilson from an executive
session where, on reasonable belief, the Board
deliberated whether to amend the Bylaws and permit
absentee voting. Wilson filed suit to determine the
parties’ rights and obligations with respect to
excluding Trustees from executive sessions. Since the
date Trustee Wilson filed suit, he has not been
wrongfully excluded from executive sessions. After
filing suit, HCC then amended its Bylaws.
11. ln 2017 Trustee Wilson complained that Trustee
Adriana Tamez did not reside within the district in
which she was elected. Trustee Wilson had a duty to

10
report the matter to the Board. On reasonable belief,
HCC refused to investigate the matter on grounds of
insufficient evidence. Therefore, Wilson retained
persons to investigate the matter to obtain more
conclusive proof. The matter still remains unresolved.
12. On January 18, 2018, Trustees, EVA LOREDO,
CAROLYN EVANS-SHABAZZ, ADRIANA TAMEZ,
NEETA SANE and ZEPH CAPO of HCC convened in
a regularly scheduled session and under color of law,
voted to censure Trustee Wilson for the above
referenced conduct. HCC censured Trustee Wilson’s
for the following conduct:
a. initiating “robo” calls regarding other board
members, conducting an interview with a local
news station regarding his criticisms of other
Trustees;
b. publishing information on a website created by
Wilson that purported exposed unethical or
illegal conduct of various Trustees;
c.

hiring a private investigator to determine the
residency of Trustee Tamez on grounds that
she did not reside in the district for which she
holds office;

d. for bringing a lawsuit against HCC after
Wilson exposed HCC for violating its own
Bylaws;
e.

for bringing a second lawsuit after HCC
banned Wilson from participating in executive
session where the Trustees would deliberate
whether to amend its Bylaws regarding
participating and voting via teleconference;

11
f.

for establishing a website that referenced
HCC’s name;

g. hiring a private investigator to investigate
HCC without HCC’s consent; and
h. repeatedly acted in a manner not consistent
with the best interests of the College or the
Board, and in violation of the Bylaws;
13. HCC contended that Trustee Wilson’s conduct violated
HCC's Bylaws and Code of Conduct in that Trustees
have a duty to (1) show respect for the Board’s
collective decision-making process, (2) engage in open
and honest discussions in making Board decisions, (3)
respect the difference of opinions among the other
Trustees, (4) interact with fellow Board members in a
way that creates and sustains mutual respect and (5)
act in HCC’s best interest. Trustee Wilson contends he
was always acting in the best interest of HCC and his
constituents.
14. HCC and Trustees, EVA LOREDO, CAROLYN
EVANS-SHABAZZ, ADRIANA TAMEZ, NEETA
SANE and ZEPH CAPO adopted a resolution that
censured Trustee Wilson. The resolution held that
Trustee Wilson violated the above provisions in its
Bylaws and Code of Conduct. The resolution declared
Trustee Wilson ineligible for election to Board Officer
positions for the 2018 calendar year and ineligible for
reimbursement for any College-related travel, any
request for access to the funds in his Board account for
community affairs. Further, the resolution directed
Wilson to cease and desist from similar conduct or face
further disciplinary action. Accordingly, Trustee

12
Wilson remains exposed to further harm from HCC for
exercising his First Amendment rights.
15. HCC, under color of law, treats Trustee Wilson
different than other Trustees similarly situated
flowing from the exercise of his First Amendment
Right of free speech, access to the court, and freedom
of association.
16. HCC, under color of law, interpreted its Bylaws and
Code of Conduct, as applied to Trustee Wilson in a
manner overly broad and violated Trustee Wilson’s
First Amendment Right of free speech, access to the
court, and freedom of association.
17. Notwithstanding, HCC’s violations of Trustee Wilson’s
rights under federal law, HCC violated Trustee
Wilson’s Due Course of Law rights under the Texas
Constitution which, on reasonable belief, is broader
than the United State’s Constitution.
V. Adoption by Reference
18. Trustee Wilson hereby adopts by reference Exhibit No.
1, Resolution of Censure into each part of Plaintiff’s
Complaint.
VI. Causes of Action
Cause of Action No. 1:
19. Trustee, David B. Wilson, hereby sues HCC for
declaratory judgment and injunctive relief under 42
U.S.C. § 1983, the First and Fourteenth Amendments
of the United State’s Constitution in accordance with
the allegations above. Trustee Wilson requests the
Court determine the parties rights and responsibilities
under HCC’s Bylaws in light of his First Amendment

13
right of free speech, declare HCC’s Board of Bylaws;
Article A, Section 4 overly broad and unconstitutional
as applied to him.
20. Trustee Wilson maintained a First Amendment right
of free speech to (1) conduct “robo” calls; (2) interview
with local news stations; and (3) publish information
on his website. The Court should review his conduct
under a strict scrutiny standard. Trustee Wilson
contends the above rules of conduct have a chilling
effect on the First Amendment that the Court should
declare such rules unconstitutional, as applied to
Trustee Wilson and enjoin their enforcement.
21. Trustee Wilson contends this action is capable of
repetition, but evading review due to the fact that the
Trustees are elected for limited time periods.
Cause of Action No. 2:
22. Trustee, David Wilson hereby sues HCC for
declaratory judgment under Texas State law in
accordance with the allegations above. Trustee Wilson
requests the Court determine the parties’ rights and
responsibilities under HCC’s Bylaws. Trustee Wilson
contends his conduct was authorized (1) under the
HCC’s Bylaws imposing a duty to act in the best
interest of HCC; and (2) in light of his right of free
speech under the Texas Constitution. Trustee Wilson’s
right of free speech under the Texas Constitution is
broader than the First Amendment.
Cause of Action No. 3:
23. Trustee, David Wilson hereby sues HCC for
declaratory judgment and injunctive relief under 42
U.S.C. § 1983, the First and Fourteenth Amendments

14
of the United States Constitution in accordance with
the allegations above. Trustee Wilson requests the
Court
determine
the
parties’
rights
and
responsibilities under HCC’s Bylaws in light of his
First Amendment right of access to the courts, declare
HCC’s Board of Bylaws; Article A, Section 4 overly
broad and unconstitutional as applied to him.
24. Trustee Wilson maintained a First Amendment right
of access to the court to redress injuries and clarify his
rights, duties and obligations under HCC’s Bylaws.
The Court should review his conduct under a strict
scrutiny standard. Trustee Wilson contends the HCC’s
Bylaws are overly broad and has a chilling effect on his
right of access to the Court, and such rule should be
declared unconstitutional, as applied to Trustee
Wilson and enjoin the enforcement of such rules.
25. Alternatively, if relief is not available under the
United States Constitution, then Trustee Wilson seeks
declaratory and injunctive relief under the Texas
Constitution and the Declaratory Judgment Act.
26. Trustee Wilson contends this action is capable of
repetition, but evading review due to the fact the
Trustees are elected for limited time periods.
Cause of Action No. 4:
27. Trustee David B. Wilson hereby sues HCC for
declaratory judgment and injunctive relief under 42
U.S.C. § 1983, the First and Fourteenth Amendments
of the United States Constitution in accordance with
the allegations above. Trustee Wilson requests the
Court
determine
the
parties’
rights
and
responsibilities under HCC’s Bylaws in light of his
First Amendment right of freedom of association,

15
declare HCC’s Board of Bylaws; Article A, Section 4
overly broad and unconstitutional as applied to him.
28. Trustee Wilson maintained a First Amendment right
of access to the court to redress injuries and clarify his
rights, duties and obligations under HCC’s Bylaws.
The Court should review his conduct under a strict
scrutiny standard. Trustee Wilson contends the HCC’s
Bylaws are overly broad and has a chilling effect on his
right of access to the Court, and such rules should be
declared unconstitutional, as applied to Trustee
Wilson and enjoin the enforcement of such rules.
29. Alternatively, if relief is not available under the
United States Constitution, then Trustee Wilson seeks
declaratory and injunctive relief under the Texas
Constitution and the Declaratory Judgment Act.
30. Trustee Wilson contends this action is capable of
repetition, but evading review due to the fact that the
Trustees are elected for limited time periods.
Cause of Action No. 5:
31. HCC violated Trustee Wilson’s rights under 42 U.S.C.
§ 1983 for its’ violations of First Amendment rights, as
articulated above under the equal protection clause.
HCC treats Trustee Wilson differently than other
trustees situated on grounds that he exercised his
First Amendment rights. Treating Trustee Wilson
differently because he exercised his First Amendment
right violates the Equal Protection Clause of the
United State’s Constitution.
VIII. [sic] Conditions Precedent
32. Trustee Wilson has either exhausted his state law
remedies, or state law remedies are insufficient to

16
redress the harm caused to Wilson. All acts necessary
to bring this lawsuit have either occurred or have been
performed.
IX. Damages
3[3].Wilson hereby sues for $10,000.00 in damages for
mental anguish, and $10,000.00 in punitive damages
and for his reasonable and necessary attorney fees.
Prayer
Plaintiff prays that Defendants be cited to appear and
upon a final hearing, declare the rights and
responsibilities of the parties and any other relief, whether
general or special, legal or equitable, award Wilson his
damages for mental anguish and punitive damages and
reasonable and necessary attorney fees.
The Law Office of Keith A. Gross
By:
/s/
Keith A. Gross
State Bar No. 24027357
250 Park Avenue
League City, Texas 77573
Phone: 832-932-5970
Fax: 832-932-5688
attnykgross@aol.com
Attorney for Plaintiff

[Exhibit 1, Resolution of Censure, is reproduced at
Pet. App. 42a-45a.]

17

BYLAWS OF THE BOARD OF TRUSTEES OF THE
HOUSTON COMMUNITY COLLEGE*
Adopted January 1, 2010
Amended June 29, 2010
Amended September 23, 2010
Amended December 2, 2010
Amended November 17, 2011
Amended December 15, 2011
Amended June 21, 2012
Amended June 24, 2014
Amended November 18, 2014
Amended February 27, 2015
Amended April 16, 2015
Amended January 21, 2016
Amended February 25, 2016
Amended April 21, 2016
Amended June 16, 2016
Amended October 20, 2016
Amended June 15, 2017
______________________________

A partial copy of this June 15, 2017, version of the HCC
bylaws is attached as Exhibit 2 to Wilson’s response to HCC’s
motion to dismiss in the district court, ECF No. 21 (filed Aug. 12,
2018).
*

18
TABLE OF CONTENTS
Preface
Mission
ARTICLE A: ETHICS
Sec. 1.
Sec. 2.
Sec. 3.
Sec. 4.

Purpose
Distribution Policy
Applicability
Code of Conduct (Amended December 2,

Sec. 5.

Prohibited Communications/Political
Contributions (Amended September 23,

Sec. 6.

2010; November 17, 2011)

2010, November 17, 2011, December 15,
2011, June 21, 2012)
Limits on Repayment of Personal Loans

(June 21, 2012)

Sec. 7.

Prohibited Benefits (Amended

Sec. 8.
Sec. 9.

Political Activities
Campaign Finance Reports (Amended

September 23, 2010)

January 21, 2016)

Sec. 10. Misuse of Official Information
Sec. 11. Mechanisms for Enforcement (Amended

November 17, 2011; November 18, 2014;
January 21, 2016)

ARTICLE B: POWERS OF THE BOARD
Sec. 1.
Sec. 2.
Sec. 3.
Sec. 4.

Authority
Delegation of Authority in Emergency
Policy Direction
Board Leadership

19
ARTICLE C: ELECTIONS
ARTICLE D: OFFICERS OF THE BOARD
Sec. 1.
Sec. 2.
Sec. 3.
Sec. 4

Election
Chair
Vice Chair
Secretary

ARTICLE E: PERSONNEL APPOINTED BY AND
REPORTING DIRECTLY TO THE
BOARD
Sec. 1.
Sec. 2.
Sec. 3.

Appointments
Chancellor (Amended January 21, 2016)
External Auditor and Internal Auditor

Sec. 4.

Board Counsel and General Counsel

Sec. 5.

(Amended April 16, 2015, February 25,
2016)
(Amended February 27, 2014, February
25, 2016, June 16, 2016)
Financial Advisor (Amended February
25, 2016, June 15, 2017)

ARTICLE F: COMMITTEES
Sec. 1.
Sec. 2.
Sec. 3.
Sec. 4.
Sec. 5.
Sec. 6.
Sec. 7.

General
Appointed Committees
Committee of the Whole

Meetings

(Amended June 24, 2014)
Standing Committees (Amended June
29, 2010, April 21, 2016)
Special/Ad Hoc Committees
Appointments to Outside Entities
Community Advisory Committees

20
ARTICLE G: GENERAL BOARD MEETINGS
Sec. 1.
Sec. 2.
Sec. 3.

Open Meetings
Definitions
Time and Location (Amended December

Sec. 4.
Sec. 5.
Sec. 6.
Sec. 7.

Notice
Voting (Amended April 16, 2015)
Order of Business
Agenda (Added April 16, 2015, June 15,

Sec. 8.
Sec. 9.
Sec. 10.
Sec. 11.
Sec. 12.
Sec. 13.
Sec. 14.
Sec. 15.

Rules of Order
Minutes and Recordings
Special Meetings
Closed Meetings/Executive Session
Prohibitions
Citizen Participation
Disruption
Social Functions and Related Events

2, 2010)

2017)

ARTICLE H: BOARD OPERATIONS
Sec. 1.
Sec. 2.
Sec. 3.

Evaluation
Efficiency
Expenditures (Amended September 23,

Sec. 4.

Board Account for Community Affairs
Request Form
Public Statements and the Media

Sec. 5.
Sec. 6.

2010; Amended December 13, 2012)

(Amended January 21, 2016)
Training (Amended September 23, 2010;
Amended November 17, 2011; January
21, 2016)
Self-Assessment of the Board

21
Sec. 7.
Sec. 8.

Requests for Information (Amended

October 20, 2016)
Requests

for

Documents

January 21, 2016)
Sec. 9.

Requests

for

(Amended

Legal

(Amended January 21, 2016)

Advice

Sec. 10. Board Member Complaints (Amended

January 21, 2016)

EXHIBITS
Exhibit A. Houston Community College Board of
Trustees and Senior Staff Conflict of
Interest Certification
Exhibit B. Code of Ethics Complaint Form
Exhibit C. HCC Trustee Board Account
Community Affairs Request

for

Exhibit D. Request to Access Official College
Records
Exhibit E. Board member Complaint Form

22
Preface
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. The Board of Trustees (“Board”) of Houston
Community College (“HCC” or “College”) derives its
authority from the community it serves. The Board
shall govern the College through the administration
(“Staff”), in accordance with state law, avoiding
actions and situations detrimental to the College, and
promoting educational opportunity for the benefit of
the entire community.
2. The Bylaws of the Board are written by the Board
for the purposes of internal management of the Board,
the Board Office and all Board activities. Any policy,
procedure or regulation in these Bylaws found in
conflict with a state or federal law, rule, or regulation
shall be null and void to the extent of the conflict.
Amendments to the Bylaws can be made only by a
majority vote of all the members of the Board.

23
Mission
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
Houston Community College is an openadmission, public institution of higher education
offering a high-quality, affordable education for
academic advancement, workforce training, economic
development, career development, and lifelong
learning to prepare individuals in our diverse
communities for life and work in a global and
technological society.

24
Article A: Ethics
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. PURPOSE. As Trustees for HCC, Board members
serve as fiduciaries pursuant but not limited to state
and federal trust law, and therefore, must act solely
and exclusively for the benefit of the College. High
ethical standards are critical to fulfilling these
responsibilities. The laws and statutes enacted by the
Legislature to govern the conduct of public officials are
considered by the Board to be the minimum standards.
These legal provisions governing ethical and
professional standards of conduct and disclosure are
provided in the following Texas statutes and should be
consulted for specific information should the need
arise:
a. Education Code;
b. Penal Code -- Chapters 36 (Bribery), 37
(Perjury) and 39 (Abuse of Office);
c.

Government Code -- Chapters 552 (Public
Information), 553 (Public Disclosure), 554
(Reporting); and 571-573 (Ethics, Conflicts of
Interest and Nepotism);

d. Texas Labor Code
Employment); and
e.

Chapter

21

(Equal

Local Government Code -- Chapters 171
(Conflicts of Interest) and 176 (Conflicts
Disclosure Statements).

25
2. DISTRIBUTION POLICY. Copies of the Board
Bylaws will be distributed to each Trustee and Senior
Staff. These Bylaws will also be posted on the HCC
website.
3. APPLICABILITY. The Board chooses to establish
a higher standard of conduct and ethical behavior to
govern HCC than Texas law requires, and hereby
defines a Standard of Conduct and Performance and
Code of Ethics for Trustees and Senior Staff. Senior
Staff is defined as:
a. Any member of the Chancellor’s Advisory
Council;
b. HCC employees classified as E-10 and above;
c.

All procurement and purchasing personnel;

d. Any employee who participates on an
evaluation or selection committee for any HCC
solicitation for goods or services; and
e.

Any employee who participates in the
evaluation of goods or services provided by a
vendor or contractor.

This ethics policy is to be read in conjunction with the
ethics portion of the Board’s governance policies.
4. CODE OF CONDUCT. The Board adopts the
following Code of Conduct for Trustees and Senior
Staff:
a. Identify and disclose any actual or potential
conflict of interest, and to act at all times for
the general public good, regardless of personal
relationships or business interests. Although
Texas law allows the election of a trustee who

26
has a spousal or other familial relation with an
employee of the College, neither a trustee nor
the employee related to him or her may take
advantage of the relationship to obtain
favorable
consideration,
to
influence
operational matters, or to gain access to
information not available under the Texas
Public Information Act.
b. Keep well-informed on Board-related issues,
and attend and participate actively in
meetings of the Board and its committees.
c.

Encourage and engage in open and honest
discussion in making Board decisions, to
respect differences of opinion, and to keep an
open mind until each Trustee has had an
opportunity to address the Board.

d. Respect the Board’s collective decision-making
process, and to accurately report and explain
Board votes and policies.
e.

Act on behalf of the Board only with the official
authorization of a majority of the total
membership of the Board.

f.

Respect the authority and responsibilities of
College employees and external contractors,
empowering
them
to
work
without
interference.

g. Maintain the confidentiality of privileged
information, as outlined in the Texas Public
Information Act and the Texas Open Meetings
Act.

27
h. Refrain from any attempt to influence any
operational decision, including but not limited
to individual admissions, personnel, or
purchasing decisions, except when the decision
is an agenda topic at an official Board meeting.
Specifically, Board members may not have any
communications about a grievance with any
person who has a grievance pending.
i.

Resist any attempt at undue influence from
political, religious or other external bodies and
protect the institution from such influence.
Board members and Senior Staff must also
report attempts of such improper external
influence to the appropriate legal counsel.

j.

Exercise a “refer” approach to the Chancellor
only with respect to communications from
potential vendors and subcontractors about
College business outside the prohibited
communications period.

k. Board members are prohibited from
suggesting or recommending subcontractors to
vendors at any time, regardless of when the
communication occurs.
l.

Request
only
authorized,
legitimate
reimbursement of College-related expenses.

m. Interact with Trustees, employees, students,
and other citizens in a manner that creates
and sustains mutual respect.
n. Complete the annual Conflict of Interest
Certification at Exhibit A.

28
5. PROHIBITED COMMUNICATIONS / POLITICAL CONTRIBUTIONS.
a. Except
as
provided
below,
political
contributions
and
the
following
communications, whether written, oral,
electronic, or otherwise, regarding a particular
invitation for bid (“IFB”), request for proposal
(“RFP”), request for qualification (“RFQ”),
employment application or other solicitation
are prohibited:
1) Communications between a potential
vendor, subcontractor, service provider,
bidder, broker, offeror, lobbyist or
consultant and any Trustee, Senior Staff,
or any member of a selection or evaluation
committee;
2) Communications between any Trustee or
Senior Staff and any member of a selection
or evaluation committee;
3) Communications between any Trustee and
administrator or employee regarding the
subject matter of the proposed contract;
and
4) Potential vendors, subcontractors, service
providers, bidders, brokers, officers,
lobbyists or consultants shall not make a
political contribution to a Trustee or
candidate during the prohibited period.
b. The communications/political contributions
prohibition period shall begin on the date that
the IFB, RFQ, RFP or other solicitation is
issued, published or posted. The HCC

29
Executive Director of Purchasing will email
notification of the beginning and ending of the
prohibited communications period to each
Trustee and Senior Staff Member. The
communications / political contribution
prohibition shall terminate thirty days after
the contract is executed by the Chancellor or
his or her designee or when a determination is
made that the contract will not be awarded.
c.

The communications prohibition shall not
apply to the following:
1) Official communications between a
potential vendor or subcontractor and
appropriate staff or administration at a
duly noticed pre-bid or pre-proposal
conference.
2) Communications with Senior Staff whose
official
job
duties
may
require
communication regarding the specific bid,
request for proposal, request for
qualifications, employment application or
solicitation under consideration, including
pre-bid or pre-proposal communications.
3) Any communications allowed by the HCC
Procurement Manual.
4) Nothing contained herein shall prohibit
any person or entity from publicly
addressing the Board during any dulynoticed public meeting, in accordance with
applicable Board policies, regarding action
on the contract.

30
d. For purposes of this section, the term
“Candidate” shall include an individual who is
running for election to a position on the HCC
Board and who meets the criteria set forth in
Section 251.001(1) of the Texas Election Code.
e.

Each potential vendor, subcontractor, service
provider, bidder, broker, officer, lobbyist or
consultant responding to a IFB, RFP, RFQ,
employment application or other solicitation,
shall include a complete list of Contractors in
its response to the solicitation. For purposes of
this section, the term “Contractors” shall
include any member of the potential vendor’s
board of directors, its chairperson, chief
executive officer, chief financial officer, chief
operating officer, any person with an
ownership interest of 10% or more, and any
subcontractor listed in a bid or contract.

f.

The Executive Director of Purchasing shall
provide the office of Board Services
information on the “Contractors” identified
under subsection (e) above within five (5)
business days of the date the response to the
solicitation is received.

g. The Board Services Office shall maintain a list
of all individuals identified pursuant to
subsection (e) above and shall submit a copy of
the list to each Trustee and Candidate five (5)
business days after receiving the information
described in this section from the Executive
Director of Purchasing. The list shall include:
1) The name of the Contractors;

31
2) The date of the initial posting of the IFB,
RFP, RFQ, employment application or
other solicitation; and
3) The end date of the prohibited period.
h. The Executive Director of Purchasing shall
include in the solicitation documents a
statement disclosing the requirements of this
policy. The statement shall be conspicuously
written in a separate section of the solicitation.
i.

Any contribution given or received in violation
of this section shall be returned no later than
the last day of the reporting period in which
the contribution is received.

j.

The Executive Director of Purchasing shall
publish to the Board an annual procurement
list that shows all annual contracts, contracts
that renew or expire during that calendar
year, and any anticipated contracts for goods
and services and the anticipated month the
procurement will be published. This list will be
published to the Board no later than February
1st of each calendar year.

6. LIMITS ON REPAYMENT OF PERSONAL
LOANS.
A Trustee or Candidate cannot be reimbursed or
repaid from campaign contributions for any personal
loan made to the Trustee or Candidate’s campaign in
excess of $5,000.00. Loans made in excess of this
amount shall be deemed a contribution to the
campaign and may not be repaid to the Trustee or
Candidate. This provision shall not alter, remove, or
affect any reporting requirements under the laws of

32
the State of Texas or these bylaws. The repayment
limits shall apply to personal loans incurred after the
adoption of this provision.
For purposed of this Section, the term “Candidate”
shall include an individual who is running for election
to a position on the HCC Board that is up for election
and who meets the criteria set forth in Section
251.001(1) of the Texas Election Code.
7. PROHIBITED BENEFITS. For the protection of
the integrity of the College, Trustees and Senior Staff
shall not:
a. Accept or solicit any gift, favor or service that
might tend to influence him/her in the
performance of official duties or that might be
offered with the intent to influence his/her
official conduct.
b. Accept employment or engage in a business
that would require the release or use of
information obtained in the performance of
official duties.
c.

Trustees and Senior staff will comply with the
HCC Governance policies and Texas law
requiring the filing of a Conflicts Disclosure
Statement or a conflict of interest affidavit
under the appropriate circumstances, and no
later than August 31st of each academic year
will sign a Conflict of Interest Certification
and submit it to the Board Services Office.

8. POLITICAL ACTIVITIES. A member of the
Board, as well as the Board as a whole, shall not
expend or authorize the expenditure of any statutorily
restricted funds for the purpose of influencing the

33
outcome of any election, or the passage or defeat of any
legislative measure. However, it is permissible for the
Board to use or authorize the use of funds to provide
information and education regarding certain matters.
9. CAMPAIGN FINANCE REPORTS. Campaign
Finance Reports for Board members will be
maintained by the Office of General Counsel as
follows:
a. Current Board members will post all
Campaign Finance Reports on the College
District website.
b. The College District will maintain former
Board member Campaign Finance Reports in
accordance with the College District document
retention policy and applicable laws.
10. MISUSE OF OFFICIAL INFORMATION. A
member of the Board shall not use the office of Trustee
to obtain or use official information in any unlawful
way.
11. MECHANISMS FOR ENFORCEMENT. The
mechanisms for enforcement of the Code of Ethics are:
a. Board members must report an alleged
violation of this Ethics Code to Board Counsel
and Senior Staff must report such
communications to the General Counsel. All
reports must be in writing using the form at
Exhibit B.
b. Any person may allege, in writing, using the
form at Exhibit B, noncompliance with this
Ethics Code to the Board Chair (or the ViceChair if the Chair is the target of the

34
allegation) or to the Chancellor if it involves a
member of the senior staff.
c.

The Board shall be advised when any
allegation of a violation of this Code of Ethics
is made.

d. The Chair, Vice-Chair or Chancellor, as
appropriate, will undertake a process to
resolve the complaint.
e.

The Chair may initiate an independent
investigation of a written complaint after
receiving approval from a majority of the
Board. Upon approval, the chair shall consult
with Board Counsel, then name an
independent third party to investigate the
complaint within the parameters set by the
Board. Further, the chair shall provide regular
updates to the Board through the named
investigator.

f.

If the Board finds a violation of this Ethics
Code, it can reprimand or censure the Board
member, the only sanctions available under
Texas law.

g. If the Chancellor finds a violation of this
Ethics Code by a member of Senior staff, the
Chancellor shall take appropriate action under
the HCC human resources policies.
h. After an evidentiary hearing, a majority vote
of the total membership of the Board may
disqualify a vendor or subcontractor from
participation in any solicitation or contract for
up to one (1) year for violating this Ethics
Code.

35
Article B: Powers of the Board
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. AUTHORITY. Board members are fiduciaries and
shall discharge their duties for the exclusive interest
of the College. The Board as a body has final authority
to establish the policies that govern the College within
the limits imposed by Texas law. Individual Board
members shall have no authority over the College, its
property, or its employees; however, each Board
member does have the right to seek information from
the College without specific Board authorization,
following prescribed procedures and proper purpose. A
Board member may act on behalf of the Board only
with the official authorization of a majority of the total
membership of the Board. Without such express
authorization, no Board member may commit the
Board on any issue. Specific powers of the Board
include, but are not limited to, the following:
a.

Govern and oversee the management of the
College.

b.

Delegate to the Chancellor the responsibility
for all administrative functions.

c.

Adopt and periodically review policies for the
College and such rules, regulations, and
bylaws as the Board deems advisable.

d.

Establish goals consistent with the College’s
role and mission.

36
e.

Levy and collect taxes and issue bonds, time
warrants and certificates of indebtedness.

f.

Provide for assessing and collecting of taxes.

g.

Adopt a budget and file a copy of the annual
operating
budget
and
subsequent
amendments with the appropriate state
agency.

h.

Have the accounts audited in accordance with
the approved financial reporting system.

i.

Submit the required annual report to the
Governor, Comptroller, State Treasurer, State
Auditor, and Legislative Budget Board.

j.

Accept on behalf of the College bequests and
donations or other monies.

k.

Establish an endowment fund outside the
state treasury in a depository selected by the
Board.

l.

Pledge funds from tuition, grants, donations,
and income for the payment of issued revenue
bonds.

m. Select a depository for College funds.
n.

Order elections as required by law.

o.

Exercise the power of eminent domain to
acquire property.

p.

Appoint the chancellor, evaluate the
chancellor, and assist the chancellor in the
achievement of performance goals.

q.

Appoint or employ agents, employees, and
officials as deemed necessary or advisable to

37
carry out any power, duty, or function of the
Board;
and,
upon
the
chancellor's
recommendation, employ faculty and other
employees of the College.
r.

Proceed by and through resolutions or orders
adopted or passed by the Board.

s.

Be authorized to fix and collect rentals, rates,
charges, or fees from students and others for
the occupancy, use or availability of all or any
of its property, buildings, structures,
activities, operations or facilities in such
amounts and in such manner as may be
determined by the Board.

t.

Acquire and hold real and personal property
and hold title to all property of the College.

u.

Execute, perform and make payments under
contracts, which may include leases, leases
with option(s) to purchase, or installment
purchase, with any person for the use,
acquisition, or purchase of any personal
property, or the financing thereof.

v.

Employ, retain, contract with, or compensate
a licensed real estate broker or salesperson for
assistance in the acquisition or sale of real
property.

w. Form a non-member, non-stock, non-profit
public facility corporation(s) for the purpose of
issuing bonds.
x.

Oversee the investment of College funds and
retain a financial advisor.

y.

Build facilities.

38
z.

Retain legal counsel and an auditor.

aa. Select, replace, dismiss and evaluate the
internal auditor in consultation with the
Chancellor and the Audit Committee.
bb. Order police protection for the College.
cc. Contract with vendors, except to the extent it
has delegated these powers to the Chancellor.
dd. Require regular reports from the College
Foundation.
ee. Ensure that its formal position on matters of
importance to the College is made clear to the
Coordinating Board when such matters are
under consideration by the Coordinating
Board.
ff.

Set admission standards.

gg. Sue and be sued.
2. DELEGATION
EMERGENCY

OF

AUTHORITY

IN

In a crisis situation, the Board temporarily delegates
authority to the Chancellor to make critical decisions
affecting the College and to protect the welfare and
safety of students and employees. The Chancellor is
authorized to sign and implement contracts and
agreements in an emergency situation or crisis.
Emergency decisions require that the Board
subsequently declare a state of emergency and ratify
any contract exceeding the Chancellor's contracting
authority.
In the event of a catastrophe, emergency, or natural
disaster affecting the College, contracting for the

39
replacement, construction, or repair of College
equipment or facilities is authorized if emergency
replacement, construction, or repair is necessary for
the health and safety of College students and staff. Tex
Educ. Code Ann. §44.0312 (Vernon 2009).
3. POLICY DIRECTION. The Board shall
formulate, amend, update, adopt and publish official
policies for the College. All policies of the College are
subject to relevant laws, rules, regulations, and
executive orders of the federal government and the
government of the State of Texas. Any policy,
procedure or regulation found in conflict with a state
or federal law, rule, or regulation shall be void to the
extent of the conflict. Noncompliance with College
policies by employees may be considered grounds for
disciplinary action, up to and including dismissal.
4. BOARD LEADERSHIP. The Board shall provide
the College with strong leadership for meeting the
increasing need for higher education throughout the
communities it serves. In this capacity, the Board
shall:
a. Create and maintain a spirit of cooperation
with the Chancellor.
b. Preserve the institutional independence of the
College and defend its right to manage its own
affairs through its chosen administrators and
employees.
c.

Enhance the public image of the College.

d. Nurture the institution so that it achieves its
full potential.

40
e.

Establish goals for the College, consistent with
its role and mission.

f.

Take clear positions before the Texas Higher
Education Coordinating Board and Texas
Legislature on all matters regarding the
College.

g. Share its philosophy with the students,
employees, and general public through regular
participation at graduation and other
ceremonies.
h. Promote unity within the College at every
opportunity, creating a family atmosphere.
i.

Promote pride and dignity amongst employees
of the College by recognizing outstanding
achievement.

j.

Protect the assets of the College to insure fiscal
stability.

k. Always act solely and exclusively for the
benefit of the College.
l.

Always act as a positive advocate for HCC and
if desired, for community college systems
generally through service with ACCT or other
community college Trustee organizations.

41
Article C: Elections
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
The Board shall consist of nine members elected from
single-member districts, who shall serve without
salary. The Board shall call an election of a Trustee or
appoint a successor Trustee when a vacancy exists on
the Board. Upon election, Trustees shall be presented
with an official Certificate of Election and an
appropriate emblem of office during a Board ceremony.
College monies shall not be spent on individual
campaigns. Trustees are elected to serve terms of six
years, and can be removed from office only as allowed
by law. The terms of three members will expire on the
last day of December of each odd-numbered year, as
follows:
Districts I, II, and VII — 1989 and every 6 years
thereafter
Districts III, VI and VIII
years thereafter

— 1991 and every 6

Districts IV, V and IX — 1993 and every 6 years
thereafter
[Section 130.088 of the Texas Education Code.]
(See Election Procedures in the HCC POLICIES
MANUAL.)

42
Article D: Officers of the Board
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. ELECTION. Officers of the Board shall be elected
by a majority of the total membership of the Board in
January, or at any time thereafter, in order to fill a
vacancy. They shall be elected for a one-year term and
may succeed themselves. Officers shall be the Chair,
the Vice-Chair and the Secretary. Officers may be
changed or removed at any time by a majority of the
total membership of the Board. If a majority vote is not
obtained in the first vote, the Trustee receiving the
lowest number of votes will be dropped and another
vote will be taken as to the remaining nominees. This
process will continue until one nominee receives at
least five (5) votes.
2. CHAIR. Duties of the Chair shall be to:
a. Preside over meetings of the Board pursuant
to Robert’s Rules of Order.
b. Appoint all
alternates.
c.

committees

and

designated

Serve as ex-officio voting member of all Board
committees.

d. Call special meetings of the Board.
e.

Perform duties and functions prescribed by the
Board.

43
f.

Call and provide proper notice for a meeting of
the Board to adopt a budget for the succeeding
fiscal year.

g. Sign all legal documents, including contracts,
warrants, vouchers and reports, as required by
state or federal law, or a current edition of
Board policy.
h. Decide all questions of order in accordance
with Robert’s Rules of Order, Newly Revised,
as modified by Board policy and/or laws.
However, said rules may be suspended by a
two-thirds vote of the Board’s total
membership.
i.

Promote Board unity and share all
information with other Board members in a
timely fashion.

Should a vacancy be declared in the Board Chair
position, the Board shall elect a permanent
replacement to fill the remainder of the term.
3. VICE CHAIR. Duties of the Vice Chair shall be to:
a. Act in the capacity and perform the duties of
the Chair in the event of the absence, death,
resignation, disability, or disqualification of
the Chair, and shall continue to serve in an
interim capacity only.
b. Become Chair only upon being elected to the
position.
c.

Perform other duties as prescribed by the
Board.

44
d. Sign, or attest to, all legal documents, in the
absence of the secretary, as required by state
or federal policy.
e.

Promote Board unity and share all
information with other Board members in a
timely fashion.

4. SECRETARY. Duties of the Secretary shall be to:
a. Keep records of all important transactions and
file budgets, forms, and reports at the proper
times and in the proper offices, as required by
law.
b. Sign, or attest to, all legal documents, as
required by state or federal law or Board
policy.
c.

Promote Board unity and share all
information with other Board members in a
timely fashion.

45
Article E: Personnel Appointed By and Reporting
Directly to the Board
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. APPOINTMENTS. All appointments by the
Board shall be made in accordance with Board policy
and state law.
2. CHANCELLOR. The Chancellor shall be the chief
executive officer of the College and as such, shall
recommend the organizational plan for the College as
well as candidates for administrative and faculty
positions within the College. The contract for this
position shall have a limit of four years. The Board
shall evaluate the Chancellor on an annual basis. The
Chancellor has a fiduciary duty to the College,
including, but not limited to, the duty to:
a. Developing
a
qualified
administrative
organization and providing the College with
academic and fund-raising leadership.
b. Preparing the annual budget and submitting
it to the Board for approval.
c.

Establishing administrative relationships
among members of the College community.

d. Preparing and approving the curriculum.
e.

Appointing campus committees, as needed.
The Chancellor will review all appointed
committees with the Board prior to
establishment, and will provide the Board

46
with a semi-annual report of the membership
of each committee
f.

Preparing the agenda for Board meetings in
coordination with the Board Chair and making
regular reports to the Board regarding the
status of the College.

g. Promoting College political effectiveness at the
state and local levels.
h. Supervising
the
development
and
implementation of a system to evaluate faculty
and staff.
i.

Assisting the Board in policy development, its
yearly self-assessment, and meeting its own
training requirements.

j.

Forging a relationship of mutual respect with
each Trustee.

k. Understanding each district of the College and
its educational needs.
l.

Enforcing
fiduciary
and
academic
accountability of the College to the general
public.

m. Promoting College unity at all levels,
emphasizing equality, diversity, and respect
for all individuals.
n. Interpreting the College to the community.
o.

Providing the Trustees with important
information in a timely manner before all
others and having background information
and research compiled on issues of particular

47
importance to the Board, with sufficient time
for study by Trustees before a vote.
p. Serving as the official spokesperson for the
College.
q. Maintaining open channels of communication
throughout the College.
r.

Handling employee disciplinary issues,
including termination when appropriate.

s.

In the event of a catastrophe, emergency, or
natural disaster affecting the College,
contracting for the replacement, construction,
or repair of College equipment or facilities if
emergency replacement, construction, or
repair is necessary for the health and safety of
College students and staff.

t.

Enhancing the image and well-being of the
College.

3. EXTERNAL
AUDITOR.

AUDITOR

AND

INTERNAL

External Auditor. The External Auditor shall be an
independent and objective party to provide advice to
the Board. The External Auditor shall be approved by
the Board, and shall report directly to the Board, with
access to the Chancellor. The Board will periodically
evaluate the performance of the External Auditor and
may dismiss or assign a new External Auditor at any
time with or without cause. All engagement letters
with the External Auditor shall be signed by the Board
Chair. The Board shall select an auditing firm for a
designated period, not to exceed five (5) years, and
shall rotate External Auditors every five (5) years.

48
a. An auditing firm selected by the Board as
External Auditor is not eligible to submit a
proposal immediately following any period
during which it was engaged by the Board as
External Auditor. The selected External
Auditor may not serve simultaneously as the
Internal Auditor.
b. The Board shall outline its expectations
regarding the annual financial statement
audit and performance audit, if requested, and
as may be directed by the Board. The Board
also may arrange for self-requested audits to
perform specific audit services. The External
Auditor shall evaluate all financial operations
of the College and prepare reports to the
Board. Among the duties of the External
Auditor are:
1) to perform audit activities necessary to
assure that College resources are being
properly managed and accounted for, that
the College has effective and adequate
internal controls, and that internal
operating colleges are reliable.
2) to assure that the College is complying
with approved policies and statutory
requirements.
3) to develop an annual audit plan for the
College’s financial audit which shall be
presented to the Chancellor and the Audit
Committee of the Board.
4) to meet with the Board as requested and to
report the results of the audit to the Board.

49
The External Auditor is prohibited from providing
non-audit services to HCC.
Internal Auditor. The Internal Auditor shall report
administratively to the Chancellor, and shall report
functionally to the Board Audit Committee. The
Internal Auditor shall be selected by the Board from
candidates approved and provided by the Chancellor.
The Chancellor shall recommend three (3) names to
the Board as the finalists, each with a minimum of 10
years of experience as a full-time Auditor. The Internal
Auditor shall be evaluated by the Chancellor after
consultation with the Audit Committee and may only
be dismissed by the Chancellor after obtaining
approval of the Board. Duties of the Internal Auditor
are to:
a. Coordinate audit efforts with those of the
External Auditor.
b. Perform all duties in accordance with the
Standards for the Professional Practice of
Internal Auditing, the Code of Ethics, the
Statements on Internal Auditing Standards,
and the Statement of Responsibilities of
Internal Auditing, each as established by the
Institute of Internal Auditors.
c.

Meet regularly with the Board and the Audit
Committee to review audits performed, audits
in progress, and future audits.

d. Conduct
independent,
protective
and
constructive audits so as to review
effectiveness of controls, financial records, and
operations.

50
e.

Analyze data obtained for evidence of
deficiencies in controls, duplication of effort, or
lack of compliance with College policies and
procedures.

f.

Prepare reports and make recommendations
on findings to the Chancellor and the Board.

g. Provide audit education and Internal Control
training.
h. Offer advisory services, Control SelfAssessment (CSA) services, and workshops.
4. BOARD
COUNSEL
COUNSEL.

AND

GENERAL

Board Counsel. The Board Counsel shall provide legal
advice to the Board. The Board Counsel shall be
approved by a majority vote of the Board, shall report
directly to the Board (with access to the Chancellor),
and may be dismissed or reassigned by the Board
without cause. The Board Counsel shall represent the
College in all assigned legal matters. The Board
Counsel shall attend all Board and Board committee
meetings. Duties of the Board Counsel include:
a. Provide advice and counsel to the Board.
b. Maintain the Board bylaws and certain Board
policies and procedures, and recommend
amendments, as needed.
c.

Handle assigned legal matters for or on behalf
of the College, such as preparation of legal
opinions as requested by the Board or the
Chancellor.

51
d. Render legal services in connection with
assigned legal matters.
e.

Perform any other legal services as may be
required by the Board or requested by the
Chancellor.

All matters assigned to Board Counsel shall be
assigned in accordance with the Guidelines. Any
reports required under these guidelines will be
submitted to the Board Governance Committee.
Upon recommendation of the Chancellor, or on its own
motion, the Board may employ other outside counsel
to address legal matters in special situations. The
outside counsel shall report directly to the Board, with
access to the Chancellor. All Board retention of counsel
shall be subject to approval of the Board. If the Board
Chair is required to retain legal services prior to
obtaining approval of the Board, such retention must
be approved by the Board at the next meeting.
General Counsel. The General Counsel shall provide
legal advice to the Chancellor. The General Counsel
shall
be
appointed
by
the
Board,
upon
recommendation of the Chancellor, and shall report
directly to the Chancellor, with access to the Board.
The General Counsel shall attend all Board and Board
committee meetings. Duties of the General Counsel
include:
a. Provide legal advice and counsel to the
Chancellor, administration and faculty.
b. Maintain
the
College’s
policies
recommend amendments, as needed.

and

52
c.

Handle routine legal matters for or on behalf
of the College.

d. Perform other legal services as may be
required by the Board or assigned by the
Chancellor.
5. FINANCIAL ADVISOR. The Financial Advisor
shall be approved by the Board, and shall report
directly to the Board, with indirect reporting to the
Chancellor or designees. The Board may periodically
evaluate the performance of the Financial Advisor as
needed, and may dismiss or assign a new Financial
Advisor at any time without cause. All engagements or
agreements with the Financial Advisor shall be signed
by the Board Chair. The Chancellor may periodically
engage other project-oriented financial consultants as
needed. The Financial Advisor shall offer guidance to
the Board in all financial matters. Duties of the
Financial Advisor include:
a. Evaluating College indebtedness.
b. Evaluating acquisition strategies.
c.

Evaluating long and short term financial
planning.

d. Advise regarding current conditions in
relevant debt market and analyze financing
alternatives.
The Board shall select the Financial Advisor for a
designated period, not to exceed five (5) years, and
shall rotate Financial Advisors every five (5) years.

53
Article F: Committees
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. GENERAL. The Board may establish such
standing and special/ad hoc committees as it deems
necessary for the welfare of the College. Appointed
committees will have three members. Committees of
the whole are comprised of the entire membership of
the Board. Special/ad hoc committees may be created
for matters not assigned to standing committees in
these bylaws. Appointed, committees of the whole and
special/ad hoc committees have the same level of
authority and are working committees that make nonbinding recommendations to the Board. The Board
chair shall designate the chair and members of each
committee and the Chancellor will assign staff with
experience and expertise in the particular area to
support the work of all committees. A committee shall
be limited to actions delegated to that committee by
the Board.
2. APPOINTED COMMITTEES
Appointments. Except where the Board elects to have
a committee organized as a committee of the whole,
the Board Chair shall appoint Board members to each
committee. Appointed committees will have three
Board members, including the committee chair, except
that the Board Chair will appoint one alternate
member to each committee. Alternate committee
members may vote, or make or second motions if any
member of the committee is absent. In case a Board

54
member should become unable to continue serving on
an appointed committee, or the Board determines that
a committee member should be removed, the Board
Chair will appoint a replacement within thirty (30)
days.
Meetings. Committee meetings shall be called by the
committee chair and duly posted, convened and
conducted in accordance with the Texas Open
Meetings Act. Any Board member may attend and
participate in discussion at any such committee
meetings. Committees will meet no more than once
monthly without prior approval from the Board Chair.
Attendance. A quorum shall be declared as soon as a
majority of the committee members are in attendance
at the appointed committee meeting. For the purposes
of a quorum, alternate committee members are
considered only if committee members are not present.
Voting in Appointed Committees. A majority vote of
a quorum of a committee is required for a committee
recommendation from an appointed committee to be
presented to the full Board for consideration. A
committee recommendation, however, does not
constitute a final Board action and, therefore, does not
bind the Board. A committee recommendation from an
appointed committee will be presented as a report at
the committee of the whole meeting, and with the
approval of both the chair of the appointed committee
and the Board Chair, will be listed on the agenda for
the next regular Board meeting under the consent
agenda.

55
3. COMMITTEE OF THE WHOLE MEETINGS
Meetings. The Board Chair shall convene any
committee of the whole meeting. Once the meeting has
opened, the chair of each committee shall officiate over
his/her committee proceedings until concluded. All
meetings shall be duly posted, convened and
conducted in compliance with the Texas Open
Meetings Act. The chair of each appointed committee
shall give a report of his/her committee’s actions and
recommendations at the committee of the whole
meeting. Unless otherwise posted, committee of the
whole meetings will be held on the second Thursday of
the month.
Attendance. A quorum shall be declared when at least
five members of a committee of the whole are present.
Voting in a Committee of the Whole. A vote of at least
five members of a committee of the whole is required
for a committee recommendation to be presented for
consideration at a regular Board meeting. A committee
recommendation, however, does not constitute a final
Board action and, therefore, does not bind the Board.
A recommendation from a committee of the whole will
be listed on the agenda for the next regular Board
meeting under the consent agenda.
4. STANDING COMMITTEES
Committees of the Whole
a. Finance and Facilities. The finance and
facilities committee shall oversee the budget,
the College capital improvement and
maintenance plan, and master planning. The
finance and facilities committee shall also

56
evaluate the performance of all financial
advisors.
Appointed Committees
a. Academic
/
Workforce
Affairs.
The
academic/workforce affairs committee shall
consider all issues affecting academic policies,
workforce progress, programmatic changes,
new certificates and technology issues. The
Chancellor shall provide an annual report on
the alignment of the college’s academic /
workforce programming with State of Texas
performance indicators and employment
trends within the Gulf Coast area.
b. Student Success/Services. The student
success/services committee shall consider all
issues affecting student success, student
services,
athletic
programs,
diversity,
financial aid, Veterans affairs and Minority
Male initiatives.
c.

Board Governance. The board governance
committee shall consider all issues affecting
Board activities, Board training, Board
outreach, human resources, and updates to all
Board policies and bylaws. The board
governance committee shall also monitor
ongoing assignments given by the Board to the
Administration and receive periodic updates
on their progress. On a semi-annual basis, the
board governance committee shall also receive
and review reports from the Board Services
Office regarding all Board expenditures and

57
will make a report at the committee of the
whole meeting.
c.

Audit. The audit committee assists the Board
in fulfilling its audit oversight responsibilities
of the institution. The committee will also
receive periodic compliance reporting and
approve the annual audit plan for
recommendation to the Board. See Article E,
Section 3 for additional responsibilities of the
audit committee.

d. External Relations. The external relations
committee shall consider all issues regarding
legislative matters, economic development and
small business.
f.

Strategic Planning. The strategic planning
committee shall assist the Board in its
fiduciary responsibilities for establishing
HCC’s mission, vision and strategic direction
by helping the administration identify critical
issues facing HCC, assisting in the analysis of
alternate strategic options and ensuing that
the administration has established an
effective strategic planning process.

g. Board/Chancellor Evaluation Committee.
The board/chancellor evaluation committee
shall plan for and oversee the timeline and
process for the annual evaluation of the
Chancellor in accordance with the Chancellor’s
contract and the annual self-evaluation of the
Board. The committee shall also review and
recommend to the Board for approval the
annual goals and objectives of the Chancellor.

58
The committee shall also facilitate the annual
self-evaluation of the Board pursuant to
industry standards and the criteria set forth in
Article H, Section 6 of the Board bylaws.
5. SPECIAL/AD HOC COMMITTEES. Special/ad
hoc committees may be created as needed by the Board
Chair for matters not assigned to standing committees
in these bylaws. At the discretion of the Board Chair,
a special/ad hoc committee may be organized as an
appointed committee or as a committee of the whole.
No special/ad hoc committee can exist for longer than
one year unless reestablished, and may be terminated
by the Board Chair upon completion of its mission.
6. APPOINTMENTS TO OUTSIDE ENTITIES.
The Board Chair shall appoint, on an annual basis,
Board members as liaisons to boards of directors or
advisory boards of outside entities, such as, for
example, the HCC Foundation.
7. COMMUNITY ADVISORY COMMITTEES.
Community advisory committees are appointed by the
Board for the purpose of improving the College and
may be dissolved by Board resolution upon completion
of their task. Committee members shall be selected to
represent a variety of ethnic groups and organizations
and to provide the College with advice on programs,
facilities, student retention, recruitment and
fundraising.
Recommendations
from
these
committees shall be forwarded to the Chancellor for
consideration and future action.

59
Article G: General Board Meetings
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. OPEN MEETINGS. The Board shall hold regular
meetings for purposes of handling College business.
All meetings shall be held in compliance with the
Texas Open Meetings Act. Citizens are welcome to
attend meetings of the Board. Trustees shall adhere to
the Board Code of Conduct and promote Board
Leadership at all times.
2. DEFINITIONS.
A “meeting” occurs when:
a. A quorum of members of the Board deliberate
with each other or with any other person; and
b. Such quorum discusses, considers, or takes
formal action on public business or public
policy that the Board supervises or controls.
“Deliberation” means an exchange, verbal, electronic
or otherwise, between a quorum of Board members (or
between them and any other person) concerning any
issue within the jurisdiction of the Board or any public
business.
No deliberation that affects public business is allowed
to take place in any setting other than a duly posted
meeting of a quorum of Board members.
3. TIME AND LOCATION. Unless otherwise
provided, the regular meeting of the Board shall be
held on the third Thursday of each month at the HCC

60
Building, 3100 Main Street. Such meetings may be
recessed from day to day until the completion of
business. The time for special and emergency meetings
of the Board shall be as stipulated in the notice for the
meeting.
4. NOTICE. Written notice of all meetings shall be
posted at the central administration building and the
website by the Board Services Office. Furthermore,
notice shall be furnished for posting to the Harris
County Clerk, the Fort Bend County Clerk, and upon
request, to the media. Notice of all meetings shall
provide for the possibility of a closed or executive
session during an open meeting, as provided by law.
5. VOTING. Each Trustee’s vote, or failure to vote,
shall be recorded by name. Only Trustees present in
person may vote. Absent Trustees may listen to the
proceedings by electronic media, but may not vote on
the proceedings. No proxy votes shall be allowed.
Other than situations in which a two-thirds vote is
required, a majority vote of the total membership of
the Board will be required in order for the Board to act.
6. ORDER OF BUSINESS. The Board Chair and the
Chancellor shall decide the order of business for
meetings. (See HCC POLICY MANUAL)
7. AGENDA. At the direction of the Board chair, the
Chancellor shall prepare and present an agenda at
least 7 calendar days prior to the regular Board
meeting, having followed the agenda preparation
process established by the Board. An item shall be
added to the agenda by the written request of three (3)
Trustees submitted to the Chancellor or Board Chair
at least seven (7) days prior to the meeting.

61
Either the Board Chair or the Chancellor, at his or
her discretion, may pull any item noticed for
discussion and/or action from the agenda without
further action by the Board unless that item has been
added by the written request of three (3) Trustees, in
accordance with the procedures outlined above.
Copies of the electronic agenda and related
materials shall be delivered to Board members by
Board Services. Paper copies of the agenda and
related materials shall be delivered to Board members
upon a written request submitted to Board Services.
8. RULES OF ORDER. Robert’s Rules of Order
(most current edition) shall constitute the rules of
procedure applicable to all meetings of the Board,
when not in conflict with any provisions of law or these
bylaws. The Board may suspend the rules, as needed,
by a two-thirds vote of the composition of the full
Board.
9. MINUTES AND RECORDINGS. The Board shall
prepare and keep minutes and/or make a tape
recording of each open meeting. The minutes and
tapes are public records and shall be available for
public inspection and copying upon request to the
Board office. Any person in attendance can make an
audio or video recording of any or all of an open
meeting, subject to reasonable rules adopted by the
Board to maintain order.
10. SPECIAL MEETINGS. Special meetings of the
Board may be called by either the Chair at his/her own
discretion, or by the independent requests of three (3)
Trustees who must call for the meeting in writing,

62
specifying the date, time, place, and purpose of the
meeting. Special meetings must be duly posted.
11. CLOSED MEETINGS/EXECUTIVE SESSION.
Trustees, employees and agents of the College shall
not divulge to any person the substance of matters
discussed at any closed meeting, except as otherwise
required or allowed by law. Closed meetings shall be
held as allowed by law to have discussions and
deliberations of College matters that cannot be made
public. A further objective would be to protect the
attorney-client privilege recognized by law.
12. PROHIBITIONS. No Board member shall
knowingly call or aid in calling or organizing a closed
meeting that is not permitted under the Open
Meetings Act. No Board member shall knowingly close
or aid in closing a regular meeting to the public (except
as permitted under the Open Meetings Act). No Board
member shall participate in a closed meeting that is
not permitted under the Open Meetings Act.
13. CITIZEN PARTICIPATION. The Board shall
provide opportunities at its meetings for citizens to
address the Board, but shall impose reasonable
restraints on the number, length, and frequency of
presentations, so long as it does not unfairly
discriminate among views seeking expression.
14. DISRUPTION. It is a criminal offense for a
person, with intent to prevent or disrupt a lawful
meeting, to substantially obstruct or interfere with the
meeting by physical action or verbal utterance. The
Board may immediately remove from the meeting any
person causing a substantial disruption.

63
15. SOCIAL
FUNCTIONS
AND
RELATED
EVENTS. The Board may congregate for social
functions, such as meals or festivities, but shall refrain
from discussing issues under consideration by the
Board for a Board vote. Trustees may gather in a
quorum at a social function unrelated to the public
business of the College, or at a regional, state or
national convention or workshop, if formal action is
not taken. Such gatherings are not “meetings” under
the law and no public notice is required to attend such
gatherings. (Tex. Govt. Code 551.001)

64
Article H: Board Operations
Responsible Board Committee: Board Governance
Responsible Department/Group: Board of Trustees
1. EVALUATION. The Board shall, on a regular
basis, evaluate the efficiency and effectiveness of
Board operations for the benefit of the College. With
the assistance of the Chancellor’s staff, operations
shall be continuously streamlined and modernized for
the efficient dispensation of College business. The
community image of the College and the Board shall
be periodically assessed for possible changes in Board
operations.
2. EFFICIENCY. For maximum efficiency, the
following rules of operation shall be followed:
Board Meetings.
a. All Board meetings shall begin promptly.
b. Transportation to all meetings shall be
provided Trustees when necessary.
c.

Meetings shall be held during hours
appropriate for maximum Board involvement
and public participation.

d. Board members shall strive to limit
themselves to no more than two minutes of
speaking time on an issue.
Board Agenda.
a. Trustees shall receive a final copy of the
agenda no later than five calendar days prior
to the meeting.

65
b. The agenda must be officially posted 72 hours
prior to the meeting. For an emergency
meeting, the agenda must be posted 2 hours in
advance. Emergency postings must be
approved by Board Counsel or the General
Counsel.
c.

A new item may be placed on the agenda by
three (3) Trustees, submitted in writing, up to
seven (7) days prior to the regular Board
meeting.

d. Supplementary (or explanatory) information
should be sent to Trustees well in advance of
the general meeting.
e.

Trustees shall be provided with all necessary
background information on any issue being
considered for a vote, no later than five days
prior to said vote.

f.

Agenda items shall have policy referral
numbers for easy reference by Trustees.

g. Fiscal impact for agenda items shall be clearly
provided for each agenda item.
Consent Agenda. In an effort to streamline the
regular agenda to allow Trustees to focus on critical
issues, committee recommendations and routine
agenda items shall be placed on the consent agenda.
3. EXPENDITURES. The Board shall have complete
control of all Board accounts, and uses of the accounts
must promote the College, develop the Board, or both.
Only Trustees in good standing are eligible to travel at
College expense or have access to community funds, as

66
discussed below. A Trustee in good standing is not
indebted to nor owes the College money for any reason.
Travel. Trustees may attend conventions, conferences,
workshops, and other events approved by the Board.
See the Board Travel Reimbursement Policy for a list
of approved Conferences. Conferences not listed in the
Board Travel Reimbursement Policy require prior
Board approval for reimbursement of related
expenses. Trustees must be in good standing to travel
at College expense.
Board Account for Community Affairs. At the
beginning of each fiscal year, a Board Account for
Community Affairs (“BACA”) will be established for
Trustees to fund activities related to their duties and
responsibilities as Board members. Each Trustee will
be limited to Five Thousand Dollars ($5,000.00) per
fiscal year, and the funds must be used in such a way
as not to violate the gift of public funds doctrine. This
doctrine, under Texas law, prevents political
subdivisions from using public money or granting
something of value for a private purpose. Trustees
must be in good standing to access BACA funds.
a. Trustees may use funds from the BACA for a
community activity related to their duties and
responsibilities as Trustees if and only if all of
the following requirements are met:
1) The activity serves a public purpose;
2) The College receives adequate value or
benefit in return; and
3) Sufficient controls are in place to ensure
the public purpose is met.

67
“Public purpose” is defined as an activity that adds
value to or benefits the College as a whole by
supporting the educational functions and mission
of the College.
b. Trustees may use funds from the BACA to
sponsor community functions such as awards
banquets, charitable events, and similar
events and activities. Examples of proper
educational public purposes are:
1) Solicitation of donations
educational programs;

for

College

2) Enhancement of the reputation of the
College in the community;
3) Support of activities that increase the
morale of employees and/or students;
4) Support of events that enhance enrollment
of students or recruitment of faculty,
administration or staff; or
5) Support of events that enhance the
academic
advancement,
workforce
training, or career development of HCC
students.
c.

Trustees will adhere to the following
guidelines as controls to ensure that a proper
educational purpose is served:
1) Trustees must complete the BACA Fund
Request Form at Exhibit C at least seven
(7) days prior to the event;
2) The Board Chair or the Chair of the Board
Governance Committee will review the

68
form for completeness and to ensure the
public purpose requirements of 8.3.3(a)
above are met, and will promptly notify the
Trustee of his or her decision. Neither the
Board Chair nor the Chair of the Board
Governance Committee may approve their
own request;
3) The amount requested must be the exact
amount of the cost of the event or activity;
4) The Board Services Office shall NOT
process a requisition for a requested BACA
expenditure without a completed BACA
Fund Request form signed by the Board
Chair or the Board Governance Committee
Chair. No requisitions will be processed if
the requesting Trustee's BACA account
has insufficient funds for the requested
expenditure; and
5) The Board Services Office will email each
Trustee the balance in their BACA account
on a monthly basis. The Board Governance
Committee will make a semi-annual
report at the committee of the whole
meeting, indicating the amount, the
activity and the requesting Trustee for
each BACA expenditure. An annual report
will be made at the end of each fiscal year.
d. Trustees may not use proceeds from the BACA
for the following:
1) Events underwritten by or supporting
religiously-affiliated organizations;

69
2) Personal or individual purposes, such as
election campaign activities;
3) To support economic development or
promote local businesses in a Trustee’s
district; or
4) Any other activity that supports an
organization, public or private, or
5) That does not meet the requirements of
8.3.3(a) above.
4. PUBLIC STATEMENTS AND THE MEDIA. The
Board shall be encouraged to speak with one voice,
through the Chair (or in the Chair’s absence, the Vice
Chair), regarding College matters before the press. If
a Board member is contacted by the news media, that
member will notify Board Services within 24 hours of
the contact. Board Services will notify all Board
members via e-mail.
5. TRAINING.
The
Board
recognizes
its
responsibility to be actively and continuously engaged
in developing individual Board member's skills and
knowledge by keeping them abreast of new
developments in fiduciary, governance, and ethics
laws, norms and best practices. The Board shall,
therefore, have an orientation and development
process in place. Board members may also attend
regional, state, or national conventions, conferences,
and workshops, and will be reimbursed for reasonable
travel expenses for attendance at such as provided in
the Board Travel Reimbursement Policy and these
Bylaws. On an annual basis, Board Counsel will
review all policies that address Board operations and
will carry out (with assistance from General Counsel

70
as needed), any necessary training for the Trustees
and Staff, as follows:
a. General Requirement. Each Trustee shall
participate in the HCC Annual Trustee
Orientation program, a training session of at
least four hours conducted by Board counsel
and other independent professionals, as
needed. The program will consist of at least
one hour of ethics training and one hour of
finance training. Board members who do not
complete this annual training by March of
each year shall be ineligible to serve as a Board
officer or as Chair of a committee until the
training is completed.
b. Mandatory Open Government Training. Each
Trustee shall, pursuant to Texas law, complete
two hours of open government training, one
hour each on open meetings and the public
information act. This training must be
completed within 90 days of being sworn in to
serve. The Office of the Attorney General
provides free online or video training to satisfy
this requirement.
c.

Mandatory Training with Texas Higher
Education Coordinating Board. Within the
first two years of service, each Trustee shall,
pursuant to Texas law, complete a training
program established by the Texas Higher
Education Coordinating Board pursuant to
Section 61.084 of the Texas Education Code.
Board members taking office on or after
January 1, 2016, must complete this training
within the first year of service. The minutes of

71
the last regular meeting of the calendar year
must reflect whether each required member
completed the training. Training via electronic
means is also acceptable.
d. Mandatory Investment Training. Within six
months after taking office or assuming duties,
each Trustee shall, pursuant to the Public
Funds Investment Act (Texas Government
Code, Chapter 2256), complete at least one
training session relating to the Trustee’s
investment responsibilities, including training
in investment controls, security risks, strategy
risks, market risks, diversification of
investment portfolio, and compliance with
Chapter 2256 of the Texas Government Code.
6. SELF-ASSESSMENT OF THE BOARD. The
Board shall evaluate its own performance and shall
establish its goals on a yearly basis. The selfassessment of the Board shall consist of:
a. Review of the Board Bylaws.
b. An assessment of Board expenditures and
savings for the year.
c.

An estimation of Board budgetary needs for
the following year.

d. An evaluation of Board accomplishments in
setting policy, uniting the community in and
out of the College, managing debt, and
improving the College.
e.

An assessment of Board Governance and
Operations.

72
f.

An assessment of the Board Office functions
(Board office staff shall be evaluated by the
Chancellor).

7. REQUESTS FOR INFORMATION
The College is committee to assuring open and public
access to all information of the College to the extent
permitted by law. Board members seeking information
from the College administration will submit a written
request to the Board Chair for review. The Board
Chair will review each request for information
submitted by a Trustee, and if appropriate, will
forward to the administration for handling. If the
Chair determines that the request is unduly
burdensome or is not reasonably related to official
Trustee issues, the Board Chair shall instruct the
Trustee submitting the request to narrow the scope of
the request. The Trustee shall resubmit the narrowed
request to the Board Chair for review.
8. REQUESTS FOR DOCUMENTS
The College is committed to assuring open and public
access to all records of the college to the extent
permitted by law.
Board members seeking access to official College
District records will complete the form at Exhibit D
pursuant to the instructions on the form.
The Board Chair will review each request for
documents submitted by a Trustee, and if the Chair
determines that the request is unduly burdensome or
is not reasonably related to official Trustee issues, the
Board Chair shall instruct the Trustee submitting the
request to submit an Open Records request in
accordance with the provisions of the Texas Public

73
Information Act and any existing HCC Open Records
policy. In addition, the Trustee shall be solely
responsible for any fees and costs associated with the
request. The Board Services office shall notify each
Trustee of all Public Information Act requests for
documents and all requests for documents from a
Trustee and shall make a copy of responsive
documents available to all Trustees at their request.
9. REQUESTS FOR LEGAL ADVICE
Individual Board members shall submit all requests
for legal advice to Board Counsel through the Board
Chair or designee. If the Board Chair determines that
the request is not reasonably related to official Trustee
issues, the Board Chair shall instruct the requesting
Board member to obtain independent legal counsel at
the Board member’s expense.
10. BOARD MEMBER COMPLAINTS.
A member of the Board who has a complaint against
another member of the Board or the HCC
administration shall undertake the following steps to
resolve the complaint:
a. Board members must submit a written
complaint, using the form at Exhibit E, to the
Board Chair, or to the Vice Chair if the Chair
is the subject of the complaint, within 30 days
of the date of the incident giving rise to the
complaint or within 30 days of the date the
Board member becomes aware of the
complaint.

74
b. The Board shall be advised when any
complaint is submitted.
c.

The Chair or Vice-Chair, as appropriate, will
undertake a process to resolve the complaint.

d. Only after Board action may the Chair or Vice
Chair initiate an independent investigation of
a written complaint. The Chair shall consult
with Board Counsel, and name an
independent third party to investigate the
complaint within the parameters set by the
Board. Further, the Chair shall provide
regular updates to the Board through the
investigator.
e.

The Chair or Vice Chair shall issue a written
statement regarding his or her findings at the
conclusion of the resolution process. The
decision of the Chair or Vice Chair is final.

75
EXHIBIT A
HOUSTON COMMUNITY COLLEGE BOARD OF
TRUSTEES AND SENIOR STAFF
CONFLICT OF INTEREST CERTIFICATION
FY_________
•
•

•

By signing below, I certify that I will abide by
the
following
conditions
during
FY
____________:
If I or a person related to me in the first degree
by either affinity or consanguinity has a
substantial interest in a business entity that
either has a HCC contract or is being considered
for a HCC contract, or has a substantial interest
in real property that HCC is considering
purchasing, before any vote or decision is made
regarding that entity, I shall file a conflict of
interest affidavit with the Board Services
Office, and if a trustee, shall also publicly
disclose the relationship to the Board in a
meeting called and held in compliance with the
Texas Open Meetings Act and shall also abstain
from discussions or other proceeding regarding
the entity and must not vote on the item. See
Chapter 171 of the Texas Local Government
Code.
If I or a person related to me in the first degree
by either affinity or consanguinity 1 either

Black’s Law Dictionary defines consanguinity as kinship;
blood relationship; the connection or relation of persons
descended from the same stock or common ancestor. As
distinguished from “affinity”, which is the connection existing in
consequence of a marriage.
1

76

•
•
•

receives income greater than $2,500 during a
12-month period or receives gifts other than
food, lodging, transportation or entertainment
accepted as a guest that exceed $100 during a
12-month period from a business entity that
either has a HCC contract or is being considered
for a HCC contract, I shall file a Conflicts
Disclosure Statement with the Board Services
Office not later than 5:00 p.m. on the seventh
business day after the date on which I become
aware of the facts that require the filing of this
statement. See Chapter 176 of the Texas Local
Government Code.
These provisions apply to vendors that are
prime or subcontractors.
I ___ am ___ am not currently aware of any facts
that require me to file a conflict of interest
affidavit or a Conflicts Disclosure Statement.
I shall not:
o Accept or solicit any gift, favor, or service
that might reasonably tend to influence
me in the discharge of my official duties
or that I know or should know is being
offered with the intent to influence my
official conduct.
o Accept other employment or engage in a
business or professional activity that I
might reasonably expect would require or
induce me to disclose confidential
information acquired by reason of my
position.
o Accept
other
employment
or
compensation that could reasonably be
expected to impair my independence of

77
judgment in the performance of my
official duties.
o Make personal investments that could
reasonably be expected to create a
substantial conflict between my private
interest and the public interest.
o Intentionally or knowingly solicit, accept,
or agree to accept any benefit for having
exercised my official powers or performed
my official duties in favor of another.
o With the intent to obtain a benefit or with
intent to harm or defraud another,
intentionally or knowingly misuse
government
property,
services,
personnel, or any other thing of value
belonging to the government that has
come into my custody or possession by
virtue of my office or employment.
Signature
Printed Name

/
Date

78
EXHIBIT B
CODE OF ETHICS COMPLAINT FORM
Please ensure all necessary/relevant information is
included. All correspondence concerning this matter
will be sent to the address or e-mail address provided
below.
Name of Complainant:___________________________
Home Address:__________________________________
Phone:__________________________________________
E-Mail: _________________________________________
Statement of complaint, including provision of the
Code of Ethics that was allegedly violated:

Signature:______________________________________
Date Submitted:___________________

79
EXHIBIT C
HCC TRUSTEE BOARD ACCOUNT FOR
COMMUNITY AFFAIRS REQUEST
Requesting trustee

Date received by Board
Services office:
Initials:

Description of event:
Date of event:

Location:

Names of trustees/attendees:
Describe the proper educational public purpose of the event:
Describe the benefit or value to the College of the event:
New initiative

Repeat initiative

AMOUNT OF REQUEST

PAYEE:

Total

Name:

$

Address
Send Check to:
Payee
Requesting Trustee
Other:
Signature of Requesting Trustee:
Approved: Board Chair

Date:

80
EXHIBIT D
HCC Board of Trustees
REQUEST TO ACCESS OFFICIAL COLLEGE
RECORDS
PLEASE COMPLETE AND RETURN TO: Board Services at

Name:

District:

Title:

Department:

Phone Number:

E-Mail:

Please describe the records requested:

Records may contain privileged or confidential
information. Disclosure of privileged or confidential
information or documents may constitute a violation of
a Trustee’s fiduciary duties. HCC does not elect to
waive attorney-client privilege or agree to the public
disclosure of the records.
The College is committed to assuring that Trustees
have open access to all records of the College to the
extent permitted by law. Please follow these steps in
submitting a request for access to HCC documents, in
accordance with Board of Trustees Bylaws, Article H,
Section 7:
1. Submit this completed form to the Board
Services office, which will forward it to the
Board Chair.
2. The Board Chair shall request input from the
administration if the Board Chair determines
that the request for documents is either (1)
burdensome in the requested response time,

81
(2) seeks information that is more than thirty
(30) pages in length, or (3) requires the
creation of reports or documents that do not
currently exist. After considering the
administration’s input, the Board Chair, at his
or her discretion, will determine the cost
effectiveness of the request and the proper
utilization of College resources necessary to
effectively respond to the request.
3. If the Board Chair determines that the request
is excessive or not reasonably related to official
Trustee issues, the Board Chair will direct the
Board member requesting the information to
submit his or her request to the HCC
administration under the Texas Public
Information Act.
4. Board members submitting a request under
the Texas Public Information Act will be
responsible for any fees and costs associated
with the request.
The Office of Board Services shall notify each Board
member of all requests for documents submitted by
Board members, and shall make a copy of responsive
documents available to all Board members upon
request, subject to the provisions above.
Signature:______________________ Date: _________
Name: __________________________

82
EXHIBIT E
BOARD MEMBER COMPLAINT FORM
Please ensure all necessary/relevant information is
included. All correspondence concerning this matter
will be sent to the address or e-mail address provided
below.
Name of Complainant: ____________________________
Phone: __________________________________________
E-Mail: __________________________________________
Statement of complaint:

Signature:_______________________________________
Date Submitted: ____________________

